  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




    MEDICARE IMPROPERLY PAID
MEDICARE ADVANTAGE ORGANIZATIONS
     MILLIONS OF DOLLARS FOR
UNLAWFULLY PRESENT BENEFICIARIES
     FOR 2010 THROUGH 2012



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                    Daniel R. Levinson
                                                     Inspector General

                                                         April 2014
                                                       A-07-13-01125
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  Medicare made improper payments to Medicare Advantage organizations totaling more
  than $26 million for unlawfully present beneficiaries for calendar years 2010 through
  2012.


WHY WE DID THIS REVIEW

Federal health care benefits are generally allowable when provided to a beneficiary who is either
a U.S. citizen or a U.S. national or to an alien who is lawfully present in the United States. But
when the alien beneficiary is not lawfully present in the United States (unlawfully present),
Federal health care benefits are not allowable. We are conducting a series of reviews examining
Medicare payments made on behalf of unlawfully present beneficiaries. We previously reported
that Medicare made improper Part A and Part B payments totaling $91.6 million to health care
providers for services to unlawfully present beneficiaries. This review covers payments made to
Medicare Advantage (MA) organizations, through MA, also known as Medicare Part C, for
unlawfully present beneficiaries.

The objective of this review was to determine whether the Centers for Medicare & Medicaid
Services (CMS) made payments to MA organizations for unlawfully present beneficiaries for
calendar years (CYs) 2010 through 2012.

BACKGROUND

CMS’s MA program offers beneficiaries managed care options by allowing them to enroll in
private health plans rather than having their care covered through Medicare’s traditional fee-for-
service (FFS) program (also known as Parts A and B). CMS, which administers Medicare,
contracts with MA organizations to provide health care services to beneficiaries enrolled in MA.

Enrollment in an MA organization begins on the first day of the month. MA organizations cover
all medically necessary services, other than hospice care, that are allowable in the FFS program.
CMS makes monthly payments to MA organizations for enrolled beneficiaries. Disenrollment
from an MA organization also begins on the first day of the month.

Federal health care benefits are not allowable for services provided to unlawfully present
beneficiaries. CMS has, for its FFS program, developed procedures to prevent and detect
Federal payments for health care services provided to unlawfully present beneficiaries. These
procedures include enhancements that CMS made in response to our previous report.

Using CMS’s data systems, we identified 31,303 beneficiaries who had been unlawfully present
at some point during CYs 2010 through 2012. We reviewed $26,150,043 that CMS paid to MA
organizations for 1,591 of these beneficiaries who were also enrolled in MA organizations.




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                     i
WHAT WE FOUND

For CYs 2010 through 2012, CMS made $26,150,043 in improper payments to MA
organizations for 1,591 unlawfully present beneficiaries. Specifically, CMS did not notify the
MA organizations of the unlawful-presence information in its data systems. In the absence of
such notification, MA organizations could not prevent unlawfully present beneficiaries from
enrolling. For the same reason, MA organizations could not disenroll beneficiaries whose
unlawful-presence status changed after they had enrolled.

In contrast to its FFS program, CMS did not have policies and procedures to notify the MA
organizations of the unlawful-presence information in its data systems. Had CMS provided this
information to the MA organizations, they would have been able to prevent enrollment and to
disenroll beneficiaries already enrolled. CMS would then have been able to recoup any improper
payments.

WHAT WE RECOMMEND

We recommend that CMS:

  •   recoup the $26,150,043 in improper payments in accordance with legal requirements;

  •   implement policies and procedures, consistent with those in effect under its FFS program,
      to notify MA organizations of unlawful-presence information and thereby prevent
      enrollment in MA organizations, disenroll beneficiaries already enrolled, and recoup any
      improper payments; and

  •   identify and recoup improper payments made to MA organizations for unlawfully present
      beneficiaries after our audit period and until policies and procedures have been
      implemented that would ensure Medicare no longer pays for unlawful beneficiaries.

CMS COMMENTS AND OUR RESPONSE

In written comments on our draft report, CMS concurred with our second recommendation and
stated that it had proposed regulations that, if finalized, would ensure consistency between the
FFS and MA programs regarding payment for unlawfully present beneficiaries. CMS partially
concurred with our third recommendation and said that until the proposed regulations are
finalized, it could not fully recover the improper payments made after our audit period.

However, CMS stated that it was unable to concur with the specific improper payment amount
identified in our first recommendation because the description of our methodology did not
contain enough details that would enable CMS to confirm the accuracy of the amount.

We agree that the regulations must change before CMS can fully identify and recoup the
improper payments made after our audit period. With regard to the specific improper payment
amount identified in the first recommendation, we explained our methodology to CMS officials




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                   ii
before we issued the draft report and are available to discuss it further. Accordingly, we
maintain that this recommendation is valid.




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)             iii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review .........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 Medicare Advantage ......................................................................................1
                 Prohibition of Federal Health Care Benefits for
                   Unlawfully Present Beneficiaries ..............................................................2
                 Obtaining Information for Unlawfully Present Beneficiaries ........................2

           How We Conducted This Review..............................................................................3

FINDINGS .............................................................................................................................3

           Federal Requirements ................................................................................................3

           CMS Made Improper Payments to Medicare Advantage
            Organizations for Unlawfully Present Beneficiaries .............................................4

           CMS Did Not Have Policies and Procedures To Notify Medicare
            Advantage Organizations of Unlawful-Presence Information ................................4

RECOMMENDATIONS .......................................................................................................5

CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE .................5

APPENDIXES

           A: Audit Scope and Methodology ............................................................................7

           B: CMS Comments ...................................................................................................8




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                                                             iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Federal health care benefits are generally allowable when provided to a beneficiary who is either
a U.S. citizen or a U.S. national or to an alien who is lawfully present in the United States. But
when the alien beneficiary is not lawfully present in the United States (unlawfully present),
Federal health care benefits are not allowable. We are conducting a series of reviews examining
Medicare payments made on behalf of unlawfully present beneficiaries. We previously reported
that Medicare made improper Part A and Part B payments totaling $91.6 million to health care
providers for services to unlawfully present beneficiaries. 1 This review covers payments made
to Medicare Advantage (MA) organizations, through MA (also known as Medicare Part C), 2 for
unlawfully present beneficiaries.

OBJECTIVE

Our objective was to determine whether the Centers for Medicare & Medicaid Services (CMS)
made payments to MA organizations for unlawfully present beneficiaries for calendar years
(CYs) 2010 through 2012.

BACKGROUND

Medicare Advantage

CMS’s MA program offers beneficiaries managed care options by allowing them to enroll in
private health plans rather than having their care covered through Medicare’s traditional fee-for-
service (FFS) program (also known as Parts A and B). Participating MA organizations include
health maintenance organizations, preferred provider organizations, provider-sponsored
organizations, and private FFS plans. CMS, which administers Medicare, contracts with MA
organizations to provide health care services to beneficiaries enrolled in MA.

An MA organization must accept enrollment requests it receives from beneficiaries, regardless of
whether they are received in a face-to-face interview, by mail, by facsimile, or through other
mechanisms defined by CMS. Upon receiving an enrollment request, an MA organization must,
within 10 calendar days, respond to the beneficiary with either a notice acknowledging
enrollment, a request for additional information, or a notice of denial. 3 CMS provides the MA
organizations with information needed to make these determinations.


1
 Medicare Improperly Paid Providers Millions of Dollars for Unlawfully Present Beneficiaries Who Received
Services During 2009 Through 2011 (A-07-12-01116, issued January 23, 2013).
2
 The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer beneficiaries managed
care options through the Medicare+Choice program. Section 201 of the Medicare Prescription Drug, Improvement,
and Modernization Act of 2003, P.L. No. 108-173, revised Medicare Part C and renamed it the MA program.
3
    CMS, Medicare Managed Care Manual, chapter 2, § 40.



Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                            1
Enrollment in an MA organization begins on the first day of the month. MA organizations cover
all medically necessary services, other than hospice care, that are allowable in the FFS program.
CMS makes monthly payments to MA organizations for enrolled beneficiaries on the basis of the
most current information available. 4 If CMS receives information that would increase or
decrease the previous payments, it makes retroactive adjustments to those payments.
Disenrollment from an MA organization also begins on the first day of the month.

Prohibition of Federal Health Care Benefits for Unlawfully Present Beneficiaries

Federal health care benefits are generally allowable to be paid on behalf of a beneficiary for
whom the Social Security Administration (SSA) has evidence that the beneficiary is either a
United States citizen or a United States national. Federal law generally prohibits the payment
of Federal public benefits, including Federal health care benefits such as Medicare Advantage,
on behalf of unlawfully present aliens. 5

In 2003, CMS issued a Program Memorandum to Medicare administrative contractors (Medicare
contractors) that stated this payment policy: “Make no payments for Medicare services
furnished to an alien beneficiary who is not lawfully present in the United States.” 6 To
implement this policy, CMS developed procedures to prohibit payments for FFS claims in
instances when the dates of unlawful presence, as shown on CMS’s data systems, overlapped
with the dates of service on the claims. These procedures include enhancements that CMS made
in response to our previous report, which identified $91.6 million of improper payments.

Obtaining Information for Unlawfully Present Beneficiaries

SSA is CMS’s primary source of information about unlawfully present beneficiaries. SSA
collects the names of Medicare beneficiaries who lose their status of being lawfully present in the
United States from the Department of Homeland Security and other Federal agencies. For these
individuals, SSA also collects the dates on which their lawful-presence status ended and, in some
instances, restarted. When SSA’s information indicates that a beneficiary’s lawful presence has
ended, CMS classifies the individual as unlawfully present for Medicare purposes. The end date
of lawful presence as indicated by SSA’s systems becomes the start date on which these
individuals are not eligible to receive Medicare benefits.




4
    The monthly payments are based on each beneficiary’s demographic and health-status information.
5
    8 U.S.C. § 1611.
6
  CMS, Payment Denial for Medicare Services Furnished to Alien Beneficiaries Who Are Not Lawfully Present in
the United States, Program Memorandum Intermediaries/Carriers, Transmittal AB-03-115 (Change Request 2825,
August 1, 2003). Under Medicare contracting reform, the functions previously executed by fiscal intermediaries and
carriers are now executed by Medicare contractors. The payment policy from this memorandum was incorporated in
the Medicare Claims Processing Manual in September 2004 (chapter 1, § 10.1.4.8).




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                                2
CMS’s data systems interface with SSA’s data systems to identify and classify individuals as
unlawfully present. Using CMS’s data systems, we identified 31,303 beneficiaries who had been
unlawfully present at some point during CYs 2010 through 2012.

HOW WE CONDUCTED THIS REVIEW

CMS made monthly payments to MA organizations associated with 1,591 unlawfully present
beneficiaries. For CYs 2010 through 2012, these payments totaled $26,150,043. We reviewed
these payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains details of our audit scope and methodology.

                                               FINDINGS

For CYs 2010 through 2012, CMS made $26,150,043 in improper payments to MA
organizations for 1,591 unlawfully present beneficiaries. Specifically, CMS did not notify the
MA organizations of the unlawful-presence information in its data systems. In the absence of
such notification, MA organizations could not prevent unlawfully present beneficiaries from
enrolling. For the same reason, MA organizations could not disenroll beneficiaries whose
unlawful-presence status changed after they had enrolled.

In contrast to its FFS program, CMS did not have policies and procedures to notify the MA
organizations of the unlawful-presence information in its data systems. Had CMS provided this
information to the MA organizations, they would have been able to prevent enrollment and to
disenroll beneficiaries already enrolled. CMS would then have been able to recoup any improper
payments.

FEDERAL REQUIREMENTS

Medicare benefits are not payable to any alien in the United States for any month during which
the alien is not lawfully present in the United States. 7 These benefits include health care services
provided to beneficiaries enrolled in MA organizations.

The Presidential memorandum Finding and Recapturing Improper Payments 8 directs Federal
agencies, including CMS, to use every tool available to identify and reclaim the funds associated

7
    8 U.S.C. § 1611.
8
    75 Fed. Reg. 12119 (Mar. 15, 2010).




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                    3
with improper payments that the Federal Government has made. The memorandum notes that
reclaiming these funds is a critical component of the proper stewardship and protection of
taxpayer dollars. In addition, Federal guidelines direct Federal agencies to take all necessary
steps to prevent, detect, and collect improper payments. 9

CMS MADE IMPROPER PAYMENTS TO MEDICARE ADVANTAGE
ORGANIZATIONS FOR UNLAWFULLY PRESENT BENEFICIARIES

CMS made improper payments of $26,150,043 to MA organizations for 1,591 unlawfully
present beneficiaries for CYs 2010 through 2012. For these beneficiaries, CMS did not notify
MA organizations of the unlawful-presence information in its data systems.

When unlawfully present beneficiaries requested enrollment in MA organizations, CMS did not
share unlawful-presence information with the MA organizations. Therefore, the MA
organizations did not have the information that they needed to prevent these beneficiaries from
enrolling. Consequently, CMS made improper payments for the months that these individuals
were enrolled.

When beneficiaries became unlawfully present while they were enrolled in MA organizations,
CMS did not notify the MA organizations of changes to those beneficiaries’ unlawfully present
status. Therefore, MA organizations did not have the information that they needed to disenroll
these beneficiaries. Because the beneficiaries remained enrolled in the MA organizations, CMS
did not detect and recoup the associated improper payments.

CMS DID NOT HAVE POLICIES AND PROCEDURES TO NOTIFY MEDICARE
ADVANTAGE ORGANIZATIONS OF UNLAWFUL-PRESENCE INFORMATION

The improper payments occurred because CMS did not have policies and procedures to notify
MA organizations of the unlawful-presence information in its data systems. Had CMS provided
this information to the MA organizations, they would have been able to prevent enrollment and
to disenroll beneficiaries already enrolled. CMS would then have been able to recoup any
improper payments.

This absence of policies and procedures stands in contrast to CMS’s FFS program, which has
procedures that prohibit Parts A and B payments for unlawfully present beneficiaries.

Thus, it was possible for a beneficiary to enroll in an MA organization after being prohibited
from having Medicare payments made on his or her behalf under the FFS program. In fact, we
identified 10 beneficiaries whose FFS claims were denied by CMS because those beneficiaries
were unlawfully present. CMS subsequently allowed these individuals to enroll in MA
organizations to receive Medicare services.



9
 Office of Management and Budget Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, part I, section A.15.



Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                          4
Because CMS relies on the unlawful-presence information that it receives from SSA for its FFS
program, using the same information in the administration of its MA program is a reasonable
extension of its efforts to ensure that payments to MA organizations are proper.

                                       RECOMMENDATIONS

We recommend that CMS:

  •   recoup the $26,150,043 in improper payments in accordance with legal requirements;

  •   implement policies and procedures, consistent with those in effect under its FFS program,
      to notify MA organizations of unlawful-presence information and thereby prevent
      enrollment in MA organizations, disenroll beneficiaries already enrolled, and recoup any
      improper payments; and

  •   identify and recoup improper payments made to MA organizations for unlawfully present
      beneficiaries after our audit period and until policies and procedures have been
      implemented that would ensure Medicare no longer pays for unlawful beneficiaries.

      CMS COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CMS concurred with our second recommendation and
stated that it had proposed regulations that, if finalized, would ensure consistency between the
FFS and MA programs regarding payment for unlawfully present beneficiaries.

CMS partially concurred with our third recommendation and said that until the proposed
regulations are finalized, it could not fully recover the improper payments made after our audit
period. To this point, CMS stated that these measures would “… also allow CMS to
appropriately adjust any payments made to plans for those beneficiaries.”

However, CMS stated that it was unable to concur with the specific improper payment amount
identified in our first recommendation because the description of our methodology “…is not
detailed enough for CMS to determine how the amount was derived, and to therefore confirm its
accuracy.”

CMS’s comments appear in their entirety as Appendix B.

With regard to our third recommendation, we agree that the regulations must change before CMS
can fully identify and recoup the improper payments made after our audit period. We continue
to recommend that CMS recover these improper payments when possible.

With regard to the specific improper payment amount identified in the first recommendation, we
conducted a formal conference with CMS officials at the end of our fieldwork—as is our
standard practice on any audit—on July 8, 2013, which was before we issued our draft report.
As part of the conference, we provided a detailed spreadsheet of our audit findings that identified
each unlawfully present beneficiary and the related improper payment. During the conference,


Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                   5
we discussed our audit methodology. If CMS officials still have questions about the finding or
our methodology, we are available to discuss them further. Accordingly, we maintain that this
recommendation is valid.




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                 6
                        APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

The audit scope covered $26,150,043 that CMS paid to MA organizations for unlawfully present
beneficiaries for CYs 2010 through 2012. We did not review CMS’s overall internal control
structure because our objective did not require us to do so. We reviewed only the internal
controls directly related to our objective.

We conducted this audit from March through May 2013.

METHODOLOGY

To accomplish our objective, we performed the following steps:

       •   We reviewed applicable Federal laws, regulations, and guidance.

       •   We held discussions with CMS officials to gain an understanding of CMS’s controls
           related to unlawfully present beneficiaries.

       •   We used CMS’s Enrollment Database 10 (as of February 23, 2013) to identify 31,303
           beneficiaries who had been unlawfully present at some point during CYs 2010 through
           2012. We compared this information to records from CMS’s Medicare Advantage
           Prescription Drug system 11 (as of March 31, 2013) and found that CMS paid MA
           organizations $26,150,043 (on behalf of 1,591 beneficiaries) for which the unlawful-
           presence dates overlapped with the dates of MA enrollment.

       •   We judgmentally selected 10 unlawfully present beneficiaries who had Medicare
           coverage through CMS’s MA program and FFS program (but not at the same time). For
           these beneficiaries, a Medicare contractor denied FFS payments because of unlawful-
           presence status. These beneficiaries subsequently enrolled in MA organizations to
           receive Medicare coverage. We held discussions with a Medicare contractor to gain an
           understanding of how it processed claims for unlawfully present beneficiaries.

       •   We discussed the results of our review with CMS officials on July 8, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

10
     The Enrollment Database is a CMS data system that identifies and classifies beneficiaries as unlawfully present.
11
  The Medicare Advantage Prescription Drug system contains CMS’s monthly payments to MA organizations for
each enrolled beneficiary.



Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                                        7
                                             APPENDIX B: CMS COMMENTS 


   ,.........,..
  (,.:J-           ~




                        DEPARIMENT OF HEALTH & HUMAN SERVICES                                     Centers for Medicare & Medica id Services


                                                                                                  Administrator
                                                                                                  Washington, DC 20201




                       DATE:             JAN 15 2614
                       TO:


                       FROM:


                       SUBJECT:       Office of Inspector General (OIG) Draft Report: "Medicare Improperly Paid
                                      Medicare Advantage Organizations Millions of Dollars for Unlawfully Present
                                      Beneficiaries for 2010 Through 2012" (A-07-13-00125)


                       Thank you for the opportunity to review and comment on this OIG draft report aimed at
                       determining the extent to which the Centers for Medicare & Medicaid Services (CMS) paid
                       Medicare Advantage Organizations (MAOs) for individuals who are not lawfully present in the
                       United States. Generally, entitlement to the Medicare program is dependent upon eligibility to
                       Social Security benefits regardless of lawful presence status, however the Personal
                       Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA) dictates that
                       unlawfully present individuals are not eligible for any federal benefits.

                       The CMS supports the report ' s recommendations to strengthen internal controls as applicable to
                       help ensure that payment to MAOs comply with Federal requirements to the extent that
                       information is available to do so. Accordingly, we agree that in cases where the information
                       indicates an individual is not lawfully present in the United States, that individual should not be
                       permitted to enroll or to remain enrolled in a Medicare Advantage plan during the period where
                       he or she is not eligible to receive federal benefits in accordance with PRWORA.

                       The CM S has been concerned about the absence of internal processes regarding the unlawfully
                       present individuals' access to services under the Medicare Advantage program. CMS is taking
                       steps to address this issue and ensure that the intent ofPRWORA is executed in accordance with
                       the information we receive by the Department of Homeland Security and the Social Security
                       Administration.

                       Below is the CMS response to the OIG recommendations in the draft report.

                       OIG Recommendation

                       The OIG recommends CMS recoup the $26,150,043 in improper payments in accordance with
                       legal requirements.




Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                                                              8
             Page 2- Daniel R. Levinson


             CMS Response

             The CMS is unable to concur with the specific improper payment amount identified in the report
             because the description of the OIG's methodology is not detailed enough for CMS to determine
             how the amount was derived, and to therefore confirm its accuracy.

              OIG Recommendation

              The OIG recommends CMS implement policies and procedures, consistent with those in effect
              under its fee-for-service (FFS) program, to notify MA organizations of unlawful-presence
              information and thereby prevent enrollment in MA organizations, disenroll beneficiaries already
              enrolled, and recoup any improper payments.

              CMS Response

              The CMS concurs with the recommendation. On January I 0 , 2014, CMS proposed regulations
              to codify the MA eligibility requirements in order to implement procedures for relaying lawful
              presence status to MA organizations for their use in determining eligibility for new and/or
              continued enrollment and receipt of Medicare covered services.
              (http://www.gpo.gov/fdsy s/pkg!FR-2014-0 1-10/pdf/20 13-31497.pdf) The proposed regulations
              clarify the relevant policy so that individuals who are not lawfully present will not be able to
              enroll in MA organizations, and those currently enrolled in an MA organization will be
              involuntarily disenrolled. If the proposed rule is finalized, it will ensure proper payment for
              those entitled to receive services under the law and establish consistency between the FFS and
              Medicare Advantage programs.

              OIG Recommendation

              The OIG recommends CMS identify and recoup improper payments made to MA organizations
              for unlawfully present beneficiaries after our audit period and until policies and procedures have
              been implemented that would ensure Medicare no longer pays for unlawful beneficiaries.

              CMS Response

              The CMS partially concurs with the recommendation. There is no effective way of fully
              recovering these payments without first implementing the appropriate policies and procedures
              including the relevant eligibility and enrollment systems changes. However, CMS recently
              proposed regulations clarifying the relevant policy and, once finalized, will establish procedures
              allowing CMS to provide MA organizations with unlawful-presence information and prevent
              new or continued enrollment in MA organizations. This will also allow CMS to appropriately
              adjust any payments made to plans for those beneficiaries.

              We appreciate the effort that went into this report. Again, we thank you for the opportunity to 

              review and comment. 





Medicare Advantage Payments for Unlawfully Present Beneficiaries (A-07-13-01125)                                   9
